Jfn tlJe ~upreme '!Court of tbe Wniteb ~tnte~
GADSDEN INDUSTRIAL PARK, LLC,
Petitioner,
V.
UNITED STATES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE WITH RULE 33.2(h)
I, Avrum Levicoff, counsel for Petitioner Gadsden Industrial Park, LLC, hereby
certify that the Reply in Support of Petition for Writ of Certiorari consists of 15 pages
excluding the sections enumerated by Rule 33.l(d). The Reply in Support of Petition for
Writ of Certiorari therefore complies with Rule 33.2(b).

(L0838616.1 f

Av
squire
Co
d
Edward I. Levicoff, Esquire
The Levicoff Law Firm, P.C.
4 PPG Place, Suite 200
Pittsburgh, PA 15222
(412) 434-5200
ALevicoff@Levicofflaw.com
ELevicoff@Levicofflaw.com
Counsel for Petitioner

{L0838616.1 }

